HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of the National Institutes of Healths National Heart, Lung, and Blood
Institutes Award Process for a Contract With Davison Motor Company, Inc.,"
(A-03-06-00545)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of the National Institutes of
Healths National Heart, Lung, and Blood Institutes Award Process for a
Contract With Davison Motor Company, Inc.," (A-03-06-00545)
May 16, 2007
Complete
Text of Report is available in PDF format (89 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by
the National Institutes of Health's (NIH) National Heart, Lung, and Blood Institute (NHLBI) and other components of
the Department of Health and Human Services (HHS) in response to Hurricanes
Katrina and Rita in 2005.
The Federal Acquisition
Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR)
provide, among other things, that HHS agencies award each contract to a
responsible party and document compliance with requirements for full and open
competition and the determination that the price was fair and reasonable.
As part of HHSs hurricane relief operations, NHLBI awarded
a contract to Davison Motor Company, Inc. (Davison), to deliver an electric
generator and fuel to the NIH research facility in Covington, Louisiana.  Our
objective was to determine whether NHLBI complied with FAR and HHSAR
requirements during the award process involving Davison.  NHLBI complied with
the requirements.